<html>
<title> - CONFIRMATION OF MARIE ANNETTE COLLINS JOHNS TO BE THE DEPUTY ADMINISTRATOR OF THE SMALL BUSINESS ADMINISTRATION</title>
<body><pre>[Senate Hearing 111-1119]
[From the U.S. Government Publishing Office]







                                                       S. Hrg. 111-1119

     CONFIRMATION OF MARIE ANNETTE COLLINS JOHNS TO BE THE DEPUTY 
           ADMINISTRATOR OF THE SMALL BUSINESS ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2010

                               __________

    Printed for the Committee on Small Business and Entrepreneurship




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available via the World Wide Web: http://www.fdsys.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-428 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED ELEVENTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                OLYMPIA J. SNOWE, Maine, Ranking Member
JOHN F. KERRY, Massachusetts         CHRISTOPHER S. BOND, Missouri
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
TOM HARKIN, Iowa                     JOHN THUNE, South Dakota
JOSEPH I. LIEBERMAN, Connecticut     MICHAEL B. ENZI, Wyoming
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
EVAN BAYH, Indiana                   ROGER WICKER, Mississippi
MARK L. PRYOR, Arkansas              JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland
JEANNE SHAHEEN, New Hampshire
KAY HAGAN, North Carolina
           Donald R. Cravins, Jr., Democratic Staff Director
              Wallace K. Hsueh, Republican Staff Director













                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Landrieu, Hon. Mary L., Chair, and a U.S. Senator from Louisiana.     1
Snowe, Hon. Olympia J., Ranking Member, and a U.S. Senator from 
  Maine..........................................................     2
Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     4
Carson, Hon. Andre, a U.S. Representative from the State of 
  Indiana........................................................     4

                                Witness

Collins Johns, Marie Annette, Nominee for Deputy Administrator of 
  the Small Business Administration..............................     5

          Alphabetical Listing and Appendix Material Submitted

Association of Small Business Development Centers
    Letter.......................................................    31
Carson, Hon. Andre
    Testimony....................................................     4
Collins Johns, Marie Annette
    Testimony....................................................     5
    Prepared statement...........................................     9
    Responses to Posthearing Questions from Senator Olympia J. 
      Snowe......................................................    20
Landrieu, Hon. Mary L.
    Testimony....................................................     1
Shaheen, Hon. Jeanne
    Testimony....................................................     4
Snowe, Hon. Olympia J.
    Testimony....................................................     2
Strauss, Paul
    Prepared statement...........................................    27

 
     CONFIRMATION OF MARIE ANNETTE COLLINS JOHNS TO BE THE DEPUTY 
           ADMINISTRATOR OF THE SMALL BUSINESS ADMINISTRATION

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:13 a.m., in 
Room 428A, Russell Senate Office Building, Hon. Mary L. 
Landrieu (chair of the committee) presiding.
    Present: Senators Landrieu, Cardin, Shaheen, and Snowe.

 OPENING STATEMENT OF HON. MARY L. LANDRIEU, CHAIR, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chair Landrieu. Good morning. Let me call the Small 
Business Committee to order for the purpose of a confirmation 
hearing for Marie Johns, Deputy Administrator of the Small 
Business Administration.
    Let me apologize for being a few minutes late. 
Unfortunately, I had an Energy hearing earlier this morning and 
had committed to the Governor of Puerto Rico to stay for his 
testimony which just ended a few minutes ago, and to the 
Commissioner on an important issue regarding the status.
    I would like to begin this morning by welcoming our very, 
very special guest. I am going to give a very brief opening 
statement, then turn this over to my Ranking Member, ask 
Senator Shaheen, and thank both of them for their patience if 
they have anything briefly to submit to the record.
    Then, Mrs. Johns, we are interested in hearing from you, 
and we are very honored to have a member of the House with us, 
Representative Carson, who will do a more official 
introduction. Let me say that I am happy we can move this 
outstanding nominee along. I understand that you have family 
and friends here, and at the time that you are able to speak, 
please feel free to introduce them to us.
    Our Committee received a statement of support from Senator 
Paul Strauss, the shadow Senator from the District of Columbia, 
who I understand is a friend, and I want to submit that for the 
record.
    I have also had a wonderful and delightful opportunity, 
Mrs. Johns, to meet with you to discuss your nomination as well 
as your enthusiasm and extensive background for this position.
    The Deputy Administrator is a critical position at the SBA, 
and I am very encouraged that it will soon be filled. Usually, 
the Deputy is the Chief Operating Officer of the Agency, but I 
understand that Administrator Mills would like you to really be 
a second pair of hands, eyes and thought as we make more robust 
the Small Business Administration, and build stronger 
partnerships with banks and lenders and others, as we confront 
the challenge of this recovery.
    It is clear from your background that you are extremely 
well positioned. You have developed extraordinary leadership 
skills through your career, and having retired recently from 
Verizon you have contributed in many ways to the community, 
serving in nonprofit organizations including the Washington 
D.C. Technology Council, and the Greater Washington Board of 
Trade. You have also been involved in one of my favorites, and 
I think I can speak for my Ranking Member and co-Senator, the 
Girl Scouts of America.
    We are very pleased to have you before our Committee. I am 
going to let this Committee know as soon as this hearing is 
concluded I am going to do everything I can to expedite your 
process through the floor of the Senate.
    Let me now turn this over to Administrator--I was promoting 
the Senator--Senator Snowe.
    [Laughter.]
    Senator Snowe. See how quickly that all happened.
    Chair Landrieu. You did not realize it, did you? The 
fastest nomination in the history of the Senate.

OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, RANKING MEMBER, AND 
                   A U.S. SENATOR FROM MAINE

    Senator Snowe. We do things quickly here.
    Thank you, Chair Landrieu and thank you all for being here 
today to consider Mrs. Marie Collins Johns, the President's 
nominee, to be Deputy Administrator of the Small Business 
Administration.
    I want to welcome you to the Committee, Mrs. Johns, and 
welcome your wonderful family, who I know that you will be 
introducing shortly.
    I would also like to acknowledge the presence of 
Congressman Andre Carson. Thank you for being here today and 
taking time out of your own busy schedule. I understand you 
represent Mrs. Johns' home-town of Indianapolis, and we 
appreciate your speaking and testifying on her behalf.
    Mrs. Johns, it certainly appears as though you have filled 
this room with staunch support, and that is something we all 
can appreciate as United States Senators.
    [Laughter.]
    With your nomination last December, I was delighted to see 
another accomplished woman chosen to lead the SBA alongside 
Administrator Karen Mills. You may not be aware, but Chair 
Landrieu and I happen to constitute the first two women to lead 
a U.S. Senate Committee in the history of the United States 
Senate. So we are making up for lost time today.
    [Laughter and applause.]
    I know that in assuming the role of Deputy Administrator 
you and Administrator Mills will be a dynamic team at the SBA 
in support of our nation's entrepreneurs.
    The role of the Deputy Administrator at SBA is unique. 
Ultimately, it is to serve as the Acting Administrator in the 
event of an absence or vacancy in the Office of the 
Administrator. But as we have seen in the past, as the SBA's 
second in command, you can also make your own individual 
contributions in the policy areas that interest you.
    And should you be confirmed, Mrs. Johns, and I have no 
doubt that you will, I challenge you, with your vast array of 
skills and expertise, to find new ways every day to empower 
small business because they are the true job generators and 
innovators of the American economy. Your professional 
experience and your commitment to excellence truly epitomize 
the American dream. Your story proves that hard work and 
commitment are the keys to professional achievement, and that 
is certainly true for our nation's small business owners as 
well.
    This is a pivotal time for SBA. There is an urgent 
imperative for job creation in this country, because we are in 
the midst of what can only be described as a jobless economic 
recovery. Thus, it is the role and responsibility of the SBA to 
foster an entrepreneurial environment, to help unleash the 
untapped job creation capacity of our nation's more than 30 
million small businesses who create two-thirds of all the net 
new jobs in America.
    As Deputy Administrator, it is my hope that you will 
bolster the efforts of Administrator Mills, who is doing an 
outstanding job as she seeks to increase the SBA's maximum loan 
limits, and Chair Landrieu and I as we work to provide a small 
business tax relief package, expand the loan limits of SBA 7(a) 
and 504 loans from $2 million to $5 million, and allow for the 
refinancing of conventional small business loans through the 
SBA 504 program. These are core programs that we think are 
crucial to helping and encouraging job creation in this country 
on behalf of small businesses.
    Administrator Mills is also working to double the number of 
exporting opportunities for small business by expanding export 
technical assistance and enhancing trade promotion.
    Meanwhile, the Agency is moving towards enhancing their 
technology by preparing for implementation of the National 
Broadband Plan which, given your background, I am sure you can 
lend your expertise to.
    Mrs. Johns, I believe that you will do an outstanding job, 
given your breadth and depth of experience and background, 
while lending your support and expertise to the many issues 
that will unfold. Today, the SBA is playing a pivotal role in 
the most recent disasters that have regrettably unfolded 
throughout this country, and most obviously the Gulf Coast 
disaster, and we trust that you will provide tremendous input 
and be instrumental in making sure these SBA programs work 
efficiently and effectively on behalf of those affected. Thank 
you.
    Chair Landrieu. Thank you.
    Senator Shaheen.

 OPENING STATEMENT OF HON. JEANNE SHAHEEN, A U.S. SENATOR FROM 
                         NEW HAMPSHIRE

    Senator Shaheen. Thank you, Chair Landrieu.
    I do not really have a statement this morning, but I would 
echo your remarks and that of Senator Snowe in the importance 
of small business to the economic recovery in this country and 
the critical role that the Small Business Administration is 
playing in that. We still have so many small businesses in New 
Hampshire who are having difficulty getting affordable loans. 
SBA is clearly going to be critical in helping those small 
businesses move forward, and we want to see strong leadership 
at the head of the SBA.
    I am delighted with your nomination, Mrs. Johns, and look 
forward to a swift confirmation.
    Chair Landrieu. Thank you.
    We have just been joined by Senator Cardin. Would you like 
to say something briefly or wait until the nominee presents her 
credentials?
    Senator Cardin. I will wait.
    Chair Landrieu. Okay. Thank you, Senator.
    Congressman, why don't you make the official introduction, 
and then we will take it from there.

  STATEMENT OF HON. ANDRE CARSON, A U.S. REPRESENTATIVE FROM 
                            INDIANA

    Mr. Carson. Thank you, Madam Chairwoman. Thank you for the 
opportunity to be here today, to Ranking Member Snowe, Madam 
Shaheen and Mr. Cardin.
    Thank you for giving me the opportunity to voice my strong 
support for the confirmation of Marie Johns. Mrs. Johns is an 
Indianapolis native that comes from a family of business 
owners, including her grandfather who owned a landscaping 
business in my district. I have enjoyed knowing Mrs. Johns and 
have been impressed by her dedication to public service and 
concern for working Americans.
    Throughout her career, as an executive and a business 
owner, Mrs. Johns has been an unyielding advocate for the 
principles of competition, fairness and diversity. She has been 
a tireless proponent of business growth across the racial, 
ethnic and socioeconomic spectrum, and a tireless promoter of 
the idea that diversity and inclusion are the keys to our long-
term stability and prosperity.
    Few people can boast a resume as impressive as hers: 
President of Verizon Washington, Chair of the D.C. Chamber of 
Commerce, Founder of L&L Consulting and a Howard University 
Trustee, and the list goes on and on. It is without question 
that Mrs. Johns will bring the breadth of leadership experience 
to the SBA and a proven record of helping entrepreneurs across 
our great nation.
    As we continue the difficult process of rebuilding our 
economy, the Federal Government will have many difficult 
decisions to make. But one thing is abundantly clear, that the 
SBA having her presence gives American small businesses a 
chance to have a greater impact on economic growth and job 
creation than almost any other effort. Few people understand 
this better than Mrs. Johns who has been involved with 
everything from small business startups to large corporations, 
and she knows just what they need to grow and prosper.
    As we all learn more and you learn more about her 
credentials over the course of this hearing, I believe 
wholeheartedly, Madam Chair, that you will find her to be 
qualified, competent and ready to begin leading the SBA on her 
very first day of service, towards the goal of growing American 
small businesses.
    I want to thank the Committee for giving me the opportunity 
to offer my support for the confirmation of Madam Johns because 
even though her work has brought her to Washington, D.C., I 
will always be proud to count Madam Johns as an Indianapolis 
native and a great Hoosier and a constituent and a friend.
    [Laughter.]
    Thank you again, Madam Chair.
    Chair Landrieu. Thank you very much.
    At this time, if I could ask our nominee to stand, we 
require our nominees to testify under oath.
    Do you solemnly swear to tell the truth, the whole truth 
and nothing but the truth, so help you, God?
    Mrs. Johns. I do.
    Chair Landrieu. Thank you very much. Please be seated, and 
we look forward to your testimony this morning.

 TESTIMONY OF MARIE ANNETTE COLLINS JOHNS, NOMINEE FOR DEPUTY 
       ADMINISTRATOR OF THE SMALL BUSINESS ADMINISTRATION

    Mrs. Johns. Thank you, Chair Landrieu, Ranking Member 
Snowe, Senator Shaheen, Senator Cardin.
    And thank you, Congressman Carson. It is so meaningful to 
me that you are here today, and I feel the presence of my dear 
friend and your grandmother, Julia Carson, former member of 
Congress.
    It is hard for me to describe the honor that I feel by 
being nominated for this position by President Obama and the 
honor to be appearing before you this morning. The SBA's 
mission to help small businesses grow and create jobs has never 
been more important. I believe that my experience will help the 
SBA advance that mission in the months and years to come.
    Like many Americans, small business is part of my family's 
history. As the Congressman mentioned, my grandfather owned a 
landscaping business in Indianapolis, Indiana for many years. 
And nearly 50 years ago, when my uncle returned to 
Indianapolis, with his newly minted degree in Pharmacy from 
Howard University, my grandfather built a community pharmacy, 
so that he could practice there and serve the African American 
community. Since then, the spirit of entrepreneurship has been 
at the core of my professional and personal life.
    I would like to briefly touch on my qualifications for the 
position of Deputy Administrator, and then I would like to 
offer a few thoughts on the important work of the SBA.
    During my career, I have been active in my local community, 
the Chamber of Commerce which happens to be the D.C. Chamber of 
Commerce. The majority of the chamber's members are, in fact, 
small businesses. I have served as Chair of the Chamber, but my 
very first leadership role in the Chamber was as Chair of the 
Small Business Committee. In that role, I helped Main Street 
businesses get technical assistance and mentoring from larger 
firms in the area. I have always had the belief that small 
businesses benefit greatly from relationships with large 
businesses and large businesses have a responsibility to 
perform those services and to support small businesses in those 
ways.
    I also helped create a visitors center to encourage 
tourists to venture off the Mall and the national monuments, 
and to explore Washington, D.C.'s many vibrant neighborhoods 
and the small businesses located there.
    I have also helped small firms that are poised for growth. 
Specifically, I founded and chaired the Washington, D.C. 
Technology Council which has brought together entrepreneurs, 
thought leaders and cutting edge researchers, and together they 
form coalitions and partnerships that help the District 
diversify its local economy and create good jobs.
    My career consists of over 20 years in telecommunications. 
I started as a first level manager and retired as President of 
Verizon Washington, which was a mid-sized unit of our 
corporation, of about 2,000 employees. Many of our customers, 
in fact most of our customers, in the business arena were small 
businesses. So we were intent on developing products and 
services to meet their needs.
    In addition, I learned about the tools and regulatory 
conditions to help both my company and their businesses grow in 
tandem. I also was focused on having strong relationships with 
our vendors and subcontractors, some of whom were, in fact, SBA 
borrowers. And finally, I also ensured that we were involved in 
special projects such as training young people for jobs in the 
telecommunications industry.
    On a personal level, I have a 30-year record of civic 
leadership. For 10 years, I served as a trustee for Howard 
University, which is home to one of the SBA Small Business 
Development Centers. I also served on the Board of the Howard 
University Hospital, and I have been Chair since its founding 
of the Howard University Middle School of Mathematics and 
Science. I have also served on the Board of the Girl Scouts of 
the U.S.A., and, as we all know, at cookie time there are no 
cuter or more effective entrepreneurs anywhere.
    [Laughter.]
    Recently, I have become familiar with the SBA's big mission 
during this critical time. In regards to capital, I believe the 
President's jobs proposal, such as extending recovery loan 
provisions and increasing loan limits--as, Chair Landrieu, you 
mentioned in your opening comments--are extremely important. I 
also support the Agency's recent self-stated goal to increase 
its network of active lenders.
    In regards to contracting, the Agency took a strong step 
forward with a new proposed Women's Contracting Rule, and this 
is an important complement to the SBA's contracting efforts 
with disadvantaged businesses, veterans and others.
    In regards to counseling and training, if confirmed, I 
would like to play an active role in reaching out to various 
groups that have been hard hit by the recession, including 
women and minority-owned businesses. Putting loans, contracts 
and other job creation tools in the hands of these fast growing 
segments of the economy must be a priority.
    And, of course, my heart and prayers continue to be with 
those in our nation who are suffering from the effects of 
various disasters, and the Agency must continue to ensure that 
its disaster assistance program is working efficiently and 
effectively.
    Truly, the SBA has a critical mission. I have seen Congress 
and this Committee working closely with Administrator Mills to 
reinvigorate the SBA and make a strong impact. I believe we can 
do even more by reaching out and creating robust two-way 
communication with even more entrepreneurs, small business 
owners and partners.
    The SBA has a strong suite of services. We can build on 
what works, eliminate what does not and give taxpayers a strong 
return on their investment, and that is my pledge to you if 
confirmed. I know that small businesses will have more 
opportunities to create jobs and lead us into the full recovery 
that they have done time and time again throughout American 
history.
    I know my time is drawing to a close, but I would like to 
just say a word if I may about some very special family members 
who are here. When I came into the room, before I took my seat, 
I have to say I had to control myself because I really see my 
life represented behind me.
    [Laughter.]
    I have my church family here, my Verizon family. It is very 
moving for me. So please forgive me. I thought I was not going 
to do this.
    [Laughter.]
    If time allowed, I would like to introduce every one of 
them to you because they are all special to me. But I know it 
does not, so please permit me a moment to acknowledge just a 
few of them.
    I am very grateful that my mother, Frieda Casey-Collins, is 
here and was able to make the trip from Indianapolis, Indiana, 
to be with us today.
    I thank our son, Richard, and daughter-in-law, Lynn, for 
being here.
    And I am also delighted to acknowledge three little people 
who have enriched my life and who make me strive to be a better 
person every day--my grandson, Richard Franklin. Richard, raise 
your hand.
    [Laughter.]
    My granddaughter, Lauren Marie. Are you going to raise your 
hand?
    [Laughter.]
    Okay, she is the feisty one.
    And my goddaughter, Olivia Jordan Albury, who I have not--
oh, there she is. Raise your hand, Olivia.
    [Laughter.]
    Then finally, I would like to thank my husband, Wendell, 
for his presence today and his 39 years of love and support.
    I thank you all, and I am now pleased to answer any 
questions you may have.
    [The prepared statement of Mrs. Johns follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you, Mrs. Johns. Thank you so much 
for that excellent presentation. It is an honor to be 
surrounded by so many friends and supporters. And our room is 
usually not this crowded.
    [Laughter.]
    So it is a great testament to your character and to the 
enthusiasm surrounding your nomination. I could not think of a 
person really more suited to be a partner with Karen Mills to 
lead this very important Agency and Department for our 
government at this time, and to breathe some enthusiasm and 
vigor and new life and new approaches, to strengthening small 
business and supporting the entrepreneurship in this country.
    Let me ask just a few questions and then we are going to 
try to move through this pretty quickly.
    One of the important priorities of this Committee is to 
make sure that the Small Business Administration is there when 
disaster strikes. As you know, we have had a very unfortunate 
set of disasters going back just as far as 9/11, moving forward 
through horrific hurricanes along the Gulf Coast, now this very 
difficult situation with an uncontrolled spill of oil in the 
Gulf. Tennessee experienced, according to the Senators and 
Members of the delegation, one of the most horrific disasters 
in the history of that State, with a large section of the City 
of Nashville, I understand, and Memphis suffering.
    What are some of your thoughts and ideas about the 
importance of aiding small business either during and 
immediately after those kinds of situations? And what have you 
maybe shared with Administrator Mills about some other 
opportunities for improvement or making sure that the programs 
we have are really working for the small business owners that 
are out there and depending on us to act quickly at a time of 
stress as these things are?
    Mrs. Johns. Chair Landrieu, that is a critical question, 
and I thank you. As I mentioned in my statement, my prayers 
continue to be with fellow Americans who are affected directly 
by these disasters, and the SBA does indeed have a very 
critical role to play in alleviating their suffering in a time 
of most need.
    Quite frankly, the Agency's performance during Katrina was 
short of laudable. And the Administrator has, I think, done a 
phenomenal job. Administrator Mills, in recognizing that there 
were some systems that were broken and some processes that 
needed to be fixed, immediately put the resources on doing just 
that. Therefore, the response time that the Disaster Assistance 
Program is showing currently in terms of meeting small 
businesses' needs has been reduced by an order of magnitude. So 
there have already been significant improvements made.
    And so what I intend to do is to work with Administrator 
Mills to make sure I am supporting the efforts that she already 
has underway, given my management background, to make sure that 
we have people who are trained, and systems that work, so that 
we can serve the needs of small businesses.
    In addition, what I would like to do--I think we have some 
opportunity--is to work more closely with other areas of 
government, to work with the Department of Defense, with 
Homeland Security, EPA, across the board. There are many 
pockets of expertise in terms of disaster response, and what I 
want to do is to learn where those are and to connect the SBA's 
resources to those other pockets of expertise. I believe that 
that will help us become even more effective in responding when 
our small businesses need us to do so.
    Chair Landrieu. Well, thank you very much, and that is 
encouraging to hear because we do have quite a few challenges 
in many areas.
    A second priority of this Committee is broadband access, 
high-speed access to entrepreneurs in this country that may be 
off of the riverfront, off of the four-lane highway or the 
interstate, struggling to stay afloat, to open up markets. We 
understand in this Committee that this could be a powerful tool 
for growth and wealth creation.
    It is not the general oversight jurisdiction of the Small 
Business Committee in terms of licensing, but we have taken, 
and will continue to take, a very aggressive position in 
advocating for small businesses in America to be on that new 
highway of opportunity, which is high-speed, affordable 
internet service. We have had any number of examples of 
companies, from Maine to Louisiana to other parts of 
California, other parts of our nation, that have testified 
right where you are sitting today that their business has been 
transformed by opportunities to access.
    Given your background, you seem to be a perfect fit in 
terms of understanding this. Could you comment on how you see 
the future of small business and the opportunities that exist 
for high-speed internet access, particularly in underserved 
urban areas and rural areas of this country?
    Mrs. Johns. Yes, Chair Landrieu, I would be happy to. I am 
very excited about the opportunity to have a role in those 
areas, in that.
    It sounds quaint now, but years ago when the internet was 
still new, and I was talking to businesses around this region 
about the power of broadband services and why small businesses 
ought to care, the thing that I thought was so fascinating 
about the power of the internet, the power of broadband 
services was that it really does level the playing field in a 
significant way--that on the internet, nobody knows how big you 
are. Depending on the power and the stickiness and the 
attractiveness of your web site, you can compete on any level.
    As we look at how we bring small businesses the support 
that they need in order to grow and create jobs, that has to 
include a strong broadband strategy. I am pleased to see that 
Administrator Mills is already working closely with the Chair 
of the FCC to make sure that the needs of small businesses are 
being factored into the broadband policy issues that the FCC is 
grappling with right now.
    I was recently able to attend a meeting, as a private 
citizen, of course, that the SBA convened to talk to companies 
who many of which are technology-based companies, to talk about 
how can the SBA support some of the new industries that are the 
engines for high job creation. The FCC Chair came and presented 
to the audience and talked about the broadband policy and the 
work that the FCC is doing now.
    The bottom line is that the SBA has a significant role in 
making sure that the Agency represents the voice of small 
business within the FCC, to ensure that they are keeping their 
eye on the ball for those companies, because the major issues 
are accessibility and affordability. So the broadband policy 
that the FCC ends up passing, or passing on and what becomes 
law, has to make sure that those two elements are present 
because that is what small businesses are going to need. In 
order for us to continue to support them, that is what they are 
going to have to have.
    It also connects to the global strategy. The SBA's and the 
President's intent to increase the number of businesses, small 
businesses who are playing in the international space, they are 
going to need to have the technology to do that.
    Chair Landrieu. Thank you for raising that. I am going to 
turn this over to Senator Snowe, but I am glad you raised the 
issue of export. Less than 1 percent of exports are done now by 
small businesses. There is a tremendous opportunity to expand 
that capacity, and so we have several bills pending that will 
enhance those opportunities for small businesses. Of course, 
the internet gives us the opportunity to actually accomplish 
what our vision is in that regard.
    Senator Snowe.
    Senator Snowe. Thank you.
    Mrs. Johns, I would like to expand upon something that we 
discussed when we met yesterday. I would be interested in you 
describing how you view your role as Deputy Administrator as 
well as your conversations with the Administrator in terms of 
what your priorities will be in carrying out your 
responsibilities because they can be varied, and obviously it 
is up to the Administrator. How do you view your role and what 
responsibilities you will assume?
    Mrs. Johns. Thank you, Ranking Member Snowe. I have had, as 
I mentioned in our conversation, a number of conversations with 
Administrator Mills about the role, and quite frankly it is 
still evolving. However, I will be the Deputy, the number two, 
and in that capacity I will have a role to play across the 
Agency.
    We have talked about some specific areas of concern where 
she would like for me to focus initially, and I am looking 
forward to doing that. One in particular is in our 
entrepreneurial development area. The SBA has a vast array of 
training programs, technical assistance opportunities. The 
Agency has done a good job with meeting the need for training 
that small businesses have, but there is more that can be done. 
So what I am looking forward to doing is to working with the 
individuals at the Agency who manage that part of the program 
and figuring out how we expand the access that small businesses 
have to the resources of the SBA.
    In my mind, it is related to concerns that businesses have 
about capital. Certainly, we are experiencing a significant 
credit/capital crunch in the country right now, but there are 
small businesses who are seeking capital who need technical 
assistance to strengthen their performance and strengthen their 
position, to make them in better, put them in a better 
situation in order to successfully get the resources that their 
business need.
    So those in my mind, those resources, those program areas 
of the Agency work hand in hand. So that is an area where I 
want to focus first.
    Senator Snowe. Do you expect to be traveling a great deal 
around the country, to meet with small businesses and banks and 
other entities that are important to small business?
    Mrs. Johns. Absolutely. I know the job of the Deputy in 
times past has been more of an internally focused, operational 
position, but, as Administrator Mills and I have discussed, 
that is not the way the job will be structured in this 
Administration. I will have certain internal areas of 
responsibility and areas where I will want to focus internally, 
to make sure that we are managing our work well. But I also 
want to join her, and she has asked for my help to join her 
externally, to make sure that we are expanding our bandwidth, 
if you will, in terms of who we are able to cover and who we 
are able to talk about the SBA mission.
    I also am looking forward to bringing the constituencies 
and the relationships that I have built over my many years in 
business to that process because there are others we can touch, 
and we are looking forward to doing just that.
    Senator Snowe. I think having an extension of the SBA 
performing outreach across the country would be critical 
because I know, from my own conversations and experiences in 
speaking with the small business community in my state and 
across the country, that they still need to have a connection 
to what is available to them with respect to SBA resources in 
these very challenging times. I had a number of small business 
forums in my state, for example, and there were many questions 
that were raised about what is available and, specifically, 
access to capital.
    I know that you have addressed that in your testimony. How 
would you suggest we ensure that small businesses are connected 
to accessing available capital?
    First, we have had a problem with lending institutions. 
That is why we are trying to increase the amount of money 
available, to provide for small business loans. So I think from 
that standpoint we have to make sure that happens. On the other 
hand, we also want to ensure that we are doing it in the right 
way. So how best do you think the SBA should ensure that 
capital is available?
    Today's credit crunch constitutes the worst since 1942 
according to a recent FDIC survey in terms of bank lending to 
small businesses by lending institutions. So you are right, 
Mrs. Johns, about increasing the number of lenders available to 
provide SBA loans, and secondly making sure they have 
sufficient capital. Their requirements have been tightened with 
the regulators, and so we have to create a balance by ensuring 
they have the available capital.
    Mrs. Johns. One area where I want to focus, Senator Snowe, 
is on the smaller banks, mid-size and smaller banks. The Agency 
has done a very good job, and Administrator Mills has traveled 
the length and breadth of the country, talking to the large 
bankers and has been very successful in getting many of them 
back to SBA lending. So I applaud her for that.
    I think we have an opportunity, though, to spread the word, 
to meet, to touch, to recruit the smaller banking community 
because many times those smaller community banks are more in 
touch, quite frankly, with the businesses, the smaller 
businesses in their area. They know the market very well, and I 
believe that we should have some very good opportunities for 
talking to those banks and explaining to them how they can be a 
very good partner with the SBA.
    I had the opportunity to serve on a bank board, a de novo 
bank in Maryland, HarVest Bank of Maryland, and HarVest Bank's 
theme is bringing banking back home to Maryland. The focus for 
HarVest Bank is to be very locally focused, to understand the 
business community, right in Rockville and Bethesda, Maryland.
    Those are the bankers that I strongly believe that the 
Agency can go to, we can talk about the suite of products on 
the loan side that the SBA offers, and make a strong case that 
would be inviting for them to want to join the network of 
lenders. So that is where I think there is some significant 
opportunity that I would like to tap into.
    Senator Snowe. Thank you.
    Chair Landrieu. Thank you.
    I have one housekeeping question that I am required to ask 
by the rules of the Committee and then just one maybe brief 
comment. The children have been extremely patient, and the 
audience has been very quiet.
    There will be times, if you are confirmed by the Senate, 
that you will be required, Mrs. Johns, to testify before this 
and maybe other committees of the Congress. Are you willing to 
appear and testify before any duly constituted committee of the 
Congress when requested to do so?
    Mrs. Johns. Yes.
    Chair Landrieu. Are you willing to provide such information 
as required by such committee?
    Mrs. Johns. Yes.
    Chair Landrieu. Thank you very much.
    My final comment is another initiative that I have not 
completely formulated yet, but I know that my Ranking Member 
and members of this Committee will share my concern over some 
very riveting testimony before this Committee just in the last 
month. I want to share it with you, and we will be sending a 
more formal letter to the Administration.
    We received testimony from one of the economists in our 
nation who studied current population reports and trends, and 
this information is lifted from the United States Census, but I 
think it is worth repeating, particularly to the group 
assembled here.
    The median net worth--although let me begin by saying this 
country has made extraordinary progress in terms of equal 
opportunity across the board over the last 50 years in 
particular. We are proud of what we have done as a country to 
lift people up and to expand opportunities, both democratic and 
economic. These statistics give me great pause and concern, and 
I want to share them with you, and this is taken from the last 
Census.
    The median net worth of non-Hispanic white households in 
the United States today, or a few years ago, was $87,000. 
African American households are $5,446. Asian Pacific is 
$59,292, and Hispanic families are $7,950.
    I, for one, who does a lot of this work and have my whole 
life, I was absolutely startled by the discrepancy of this. 
This includes home equity. If you take out home equity, for the 
African American community, the net worth of the median is less 
than $1,000.
    So I am going to be sharing this data everywhere I go and 
to try to use it to prompt and prod us to do more. I think that 
work can start at the SBA. Obviously, there is great 
responsibility across the board, at every level of government.
    I think you know, Mrs. Johns, you have been appointed for a 
reason, and perhaps you can provide some focus, some very 
specific focus with this Administration on alleviating this 
discrepancy.
    I think there are strategies that most certainly can be 
employed, and our Committee is going to be looking and very 
open for suggestions because in this day and age, with the 
opportunities that are out there, and with all of the 
accomplishments that have been achieved, these numbers are 
very, very gripping. So we have a job to do.
    Is there anything else?
    Senator Snowe. No
    Chair Landrieu. Okay. This meeting is adjourned.
    I am sorry. The meeting is adjourned. You can applaud.
    [Applause.]
    We will keep the record open for letters and endorsements. 
The record will remain open until May 21st.
    The Committee will hold a markup on this nomination at the 
very first vote next week. We need a majority of members to be 
there. We are looking forward to getting this nominee through 
to the Senate by next week. Thank you.
    [Whereupon, at 10:53 a.m., the Committee was adjourned.]





                      APPENDIX MATERIAL SUBMITTED

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  <all>

</pre></body></html>
